No. 20-1747
IN THE

Supreme Court of the United States
ERICH G. SORENSON,
Petitioner,
v.
COMMONWEALTH OF MASSACHUSETTS,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
MASSACHUSETTS APPEALS COURT
CERTIFICATE OF SERVICE
I, Alan E. Schoenfeld, a member of the bar of this Court, hereby certify that, on
this 16th day of July, 2021, all parties required to be served have been served copies of
the Brief for Amici Curiae The Charles Hamilton Houston Institute for Race and
Justice, The Fred T. Korematsu Center for Law and Equality, and The NYU Center on
Race, Inequality, and the Law In Support of Petitioner in this matter by overnight
courier to the attached service list.

ALAN E. SCHOENFELD
WILMER CUTLER PICKERING
HALE AND DORR LLP
7 World Trade Center
250 Greenwich Street
New York, NY 10007
(212) 230-8800
alan.schoenfeld@wilmerhale.com

SERVICE LIST

Counsel for Petitioner

Counsel for Respondent

GERARD J. CEDRONE
GOODWIN PROCTER, LLP
100 Northern Avenue
Boston, MA 02210
(617) 570-1849
gcedrone@goodwinlaw.com

MAURA HEALEY
MASSACHUSETTS ATTORNEY GENERAL
THOMAS E. BOCIAN
RANDALL E. RAVITZ
OFFICE OF THE MASSACHUSETTS ATTORNEY GENERAL
One Ashburton Place
Boston, MA 02108
(617) 727-2200
thomas.bocian@state.ma.us
randall.ravitz@state.ma.us

2

